     Department of Homeland Security

     ��������������������������


         Research and Development Efforts 

          to Secure Rail Transit Systems





OIG-13-111                              August 2013

                "~"'
               i~ OFFICE OF INSPECTOR GENERAL
               ~    Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


                                  August 27, 2013


MEMORANDUM FOR:              The Honorable John Pistole
                             Administrator
                             Transportation Security Administration

                             The Honorable Dr. Tara O'Toole
                             Under Secretary
                             Science and Technology Directorate

FROM:                        Charles K. Edwards                /7( } ~ ~ ,-- _/
                             Deputy Inspector General          ~hi\·~~
SUBJECT:                     Research and Development Efforts to Secure Rail Transit
                             Systems


Attached for your action is our final report, Research and Development Efforts to Secure
Rail Transit Systems. We incorporated the formal comments from the Transportation
Security Administration in the final report.

The report contains one recommendation aimed at improving TSA's Gap Analysis
Process. Your office concurred with the recommendation. As prescribed by the
Department of Homeland Security Directive 077-1, Follow-Up and Resolutions for the
Office of Inspector General Report Recommendations, within 90 days of the date of this
memorandum, please provide our office with a written response that includes your
(1) agreement or disagreement, (2) corrective action plan, and (3) target completion
date for our recommendation. Also, please include responsible parties and any other
supporting documentation necessary to inform us about the current status of the
recommendation.

Please email a signed PDF copy of all responses and closeout requests to
OIG InspectionsFollowu p@oig.dhs.gov.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Please call me with any questions, or your staff may contact Deborah Outten-Mills,
Acting Assistant Inspector General for Inspections, at (202) 254-4015.

Attachment




                                         2
                                   OFFICE OF INSPECTOR GENERAL 

                                              Department of Homeland Security



   Table of Contents
   Executive Summary............................................................................................................. 1 


   Background ........................................................................................................................ 2 


   Results of Review ................................................................................................................ 6 


              S&T and TSA Reorganized Working Groups and Redesigned Their Processes for
              Identifying Capability Gaps and Prioritizing R&D Projects .................................... 7

              Recommendation ................................................................................................. 10

              Management Comments and OIG Analysis ......................................................... 10

              S&T Has Created the Necessary Framework for the Development of
              Layered IED Detection Technology ....................................................................... 11

   Appendixes
              Appendix A:         Objectives, Scope, and Methodology ............................................. 12

              Appendix B:         Management Comments to the Draft Report ................................ 14

              Appendix C:         Major Contributors to This Report ................................................. 16 

              Appendix D:         Report Distribution ......................................................................... 17 


   Abbreviations
              APTA                  American Public Transportation Association
              CIPAC                 Critical Infrastructure Partnership Advisory Council
              COTS                  Commercial Off-the-Shelf
              DHS                   Department of Homeland Security
              DOT                   Department of Transportation
              DT&E                  Developmental Test and Evaluation
              EXD                   Explosives Division
              GCC                   Government Coordinating Council
              HSARPA                Homeland Security Advanced Research Projects Agency
              IED                   improvised explosive device
              IPT                   Integrated Product Team
              NIPP                  National Infrastructure Protection Plan
              NPPD                  National Protection and Programs Directorate
              OIG                   Office of Inspector General
www.oig.dhs.gov                                                                                                                OIG-13-111
                    OFFICE OF INSPECTOR GENERAL 

                          Department of Homeland Security



           OSC      Office of Security Capabilities
           OSPIE    Office of Security Policy and Industry Engagement
           OT&E     Operational Test and Evaluation
           PAG      Transit Policing and Security Peer Advisory Group
           RDWG     Surface Transportation Research and Development Working Group
           R&D      Research and Development
           S&T      Science and Technology
           SCC      Sector Coordinating Council
           TCLDR    Transit, Commuter and Long-Distance Rail
           TRL      Technology Readiness Level
           TSA      Transportation Security Administration
           TSGP     Transportation Security Grant Program
           TS-SSP   Transportation Systems–Sector Specific Plan
           USCG     United States Coast Guard




www.oig.dhs.gov                                                             OIG-13-111
                        OFFICE OF INSPECTOR GENERAL 

                                Department of Homeland Security



   Executive Summary
   The National Infrastructure Protection Plan stipulates that the Transportation Security
   Administration (TSA) coordinate preparedness activities among transportation sector
   partners to prevent, protect against, respond to, and recover from all hazards that could
   affect U.S. transportation systems.

   TSA, with the collaboration and coordination of other Federal agencies and the surface
   transportation industry, created the Surface Transportation Research and Development
   Working Group. The group’s mission is to gather and consolidate sector-directed
   research and development efforts from all transportation security partners. It identifies
   security vulnerabilities—capability gaps—and refers them to DHS Science & Technology
   Directorate (S&T) for further review and possible initiation of research and development
   projects.

   Based on the gap analysis, S&T developed the Surface Transportation Program. The
   program provides the necessary framework to pursue TSA technologies to detect leave-
   behind improvised explosive device threats and to secure mass transit stations through
   layered detection technology.

   The purpose of our review was to evaluate (1) how critical gaps in detecting improvised
   explosive device threats against mass transit systems are identified and prioritized for
   research and development, and (2) how S&T coordinates research and development
   efforts with TSA to address those gaps. The scope of this review was limited to the
   transportation sector’s mass transit mode, specifically subway systems.

   S&T and TSA replaced previously established working groups and processes with
   smaller, more effective groups, such as the Surface Transportation Project Integrated
   Product Team, chartered in 2010, and the Research and Development Working Group,
   reorganized in 2011. Although these groups and their associated processes are
   relatively new, they are successful in identifying and consolidating old and new
   capability gaps. In addition, S&T and TSA are effectively collaborating in research and
   development efforts to address mass transit security needs. Although the new gap
   analysis process is based on the Transportation Sector-Specific Security Plan, TSA does
   not have written guidelines or directives to formalize the process.

   We are recommending that TSA formally document the newly implemented process for
   identifying capability gaps to ensure consistency in future gap reviews.




www.oig.dhs.gov                                1                                      OIG-13-111
                             OFFICE OF INSPECTOR GENERAL 

                                       Department of Homeland Security



   Background
   S&T is the primary component within the Department of Homeland Security (DHS) for
   research and development (R&D). S&T provides Federal, State, and local officials with
   the technology and capabilities to protect the homeland. S&T manages science and
   technology research from development through transition to Department components.
   TSA relies on S&T to develop technology that protects the Nation’s transportation
   systems to ensure freedom of movement for people and commerce.

   The DHS National Infrastructure Protection Plan (NIPP) was established in 2006, in
   accordance with Homeland Security Presidential Directive 7. The NIPP provides a risk-
   based framework for the development of strategic plans that enhance the safety of 18
   critical infrastructures.1 It also describes the process for TSA and S&T to identify and
   prioritize critical transportation security gaps for R&D efforts.

   The Secretary of DHS designated TSA and the United States Coast Guard as the Sector-
   Specific Agencies for the Transportation Systems Sector, one of the 18 critical
   infrastructures.2 TSA and the Coast Guard, in collaboration with the Department of
   Transportation (DOT), coordinate the preparedness activities among the sector’s
   partners to prevent, protect against, respond to, and recover from all hazards that could
   have a debilitating effect on homeland security, public health and safety, and economic
   well-being.

   The Transportation Systems Sector includes all modes of transportation (aviation,
   maritime, mass transit, highway, freight rail, and pipeline). TSA developed the
   Transportation Systems-Sector Specific Plan (TS-SSP) in 2007 to document the process
   for carrying out the national strategic priorities outlined in the NIPP. The TS-SSP
   describes strategies that protect critical infrastructure and key resources. It describes
   the security framework that enables sector stakeholders to make effective and risk-
   based security and resource allocation decisions based on the unique characteristics and
   conditions of their sector.

   The NIPP also requires the Transportation Systems Sector to facilitate effective
   coordination between government and the private sector. Accordingly, TSA established
   a Government Coordinating Council (GCC) and a Sector Coordinating Council (SCC). DHS
   also chartered the Critical Infrastructure Partnership Advisory Council (CIPAC), which


   1
    GAO-09-678, June 2009, Transportation Security, p. 12. 

   2
    Sector-specific agency is the Federal department or agency responsible for infrastructure protection

   activities in a designated critical infrastructure sector or key resources category (GAO-09-678, June 2009, 

   Transportation Security, p. 12). 


www.oig.dhs.gov                                         2                                                OIG-13-111
                             OFFICE OF INSPECTOR GENERAL 

                                        Department of Homeland Security



   established a process for consensus-based engagement between the GCC and SCC.3
   With CIPAC guidance, these councils foster development and communication of
   coordinated policies and positions on matters in transportation security and operational
   efficiency. Members of the respective councils collaborate to develop and implement
   security strategies, plans, and programs outlined in the TS-SSP. Figure 1 shows the NIPP
   framework as it relates to the Transportation Systems Sector.

            Figure 1. NIPP Framework




                                                                                     18
                   NIPP            Requires    CIPAC          Governs             Critical
                                                                              Infrastructures



                                                                                 Transportation
                                                                                 Systems Sector




            Source: OIG analysis


   Mass Transit Mode

   To address the unique aspects of each mode of transportation, TSA developed
   supporting modal implementation plans. The Mass Transit Modal Annex details TSA’s
   overall goals and objectives related to mass transit security. We focused primarily on
   the Transportation Systems Sector’s mass transit mode.

   TSA has also established GCCs and SCCs for each mode, which resemble the
   Transportation Systems Sector GCC and SCC. As required by the NIPP and the TS-SSP,
   the GCCs and SCCs communicate regarding infrastructure risk assessments, planning,
   prioritization, programming, and risk reduction measurement. For the mass transit
   mode, TSA, in coordination with its Federal partners, has established the Transit,
   Commuter and Long-Distance Rail (TCLDR) GCC to bring together Federal entities with
   responsibilities that affect mass transit security. Representatives from DOT, DHS, the
   Federal Bureau of Investigation, and the Department of Defense participate in the
   TCLDR-GCC.

   3
    CIPAC was chartered in June 2006 by Former DHS Secretary Michael Chertoff, as a requirement of
   Homeland Security Presidential Directive 7 and as identified in the National Infrastructure Protection Plan.

www.oig.dhs.gov                                         3                                               OIG-13-111
                              OFFICE OF INSPECTOR GENERAL 

                                     Department of Homeland Security



   The Mass Transit SCC, chaired by the Chief Executive Officer of Metrolink, and
   supported by the Director of the American Public Transportation Association (APTA), is
   composed of private sector representatives from transit agencies and business
   organizations providing support services to the public transportation industry. APTA is a
   nonprofit organization with members from public organizations engaged in bus, mass
   transit, light rail, commuter rail, subways, waterborne passenger services, and high-
   speed rail.

   Figure 2 shows mass transit’s structure within the Transportation Systems Sector.

           Figure 2. Transportation Systems Sector’s Mass Transit Structure




                                                                        TCLDR - GCC

                                                 Mass Transit
                  Transportation
                  Systems Sector   TSA Leads       Mode
                                                                        Mass Transit
                                                                           SCC



            Source: OIG analysis


   The Transit Policing and Security Peer Advisory Group (PAG), which was formed under
   the auspices of the SCC, brings together the expertise of 21 transit police chiefs and
   security directors from mass transit systems across the United States. The PAG acts as
   an effective communication instrument and liaison group with the TSA and other federal
   governmental agencies.

   The TCLDR-GCC, Mass Transit SCC and the PAG serve as coordinating bodies to discuss,
   develop, and refine positions in all matters on transit security. They implement both the
   TS-SSP and the plan outlined in the Mass Transit Modal Annex. Working through the
   CIPAC, government and industry come together in efforts to reach consensus on transit
   security initiatives to include research and development efforts.

   Mass Transit Presents a Different Set of Requirements and Challenges

   Since the attack on the United States on September 11, 2001, DHS has concentrated its
   R&D efforts on technology for airline passenger screening, especially the detection of
   explosive devices. Although mass transit security commands greater importance

www.oig.dhs.gov                                   4                                    OIG-13-111
                         OFFICE OF INSPECTOR GENERAL 

                                  Department of Homeland Security



   following the attacks on subway systems overseas, mass transit presents unique
   challenges for DHS not previously encountered with aviation security efforts. These
   challenges have contributed to the lack of effective technology to detect improvised
   explosive devices (IEDs) in rail systems. Specifically:

           Mass transit systems are attractive targets for terrorists because of
           vulnerabilities, such as open space architecture, restrictions on access, a lack of
           universal security screening, and multiple stops and interchanges. In addition,
           unlike the largely standardized passenger aviation system, there is no common
           blueprint for transit system stations, track layout, train designs, or fare collection
           systems.

           Although TSA has a stake in the development of technology to secure mass
           transit, the individual transit agencies are both the customers and the end-users
           for any new technology. Transit agencies’ operating budgets may or may not
           enable them to purchase and deploy new technology. The Transportation
           Security Grant Program (TSGP) provides grants for safety and security measures
           to augment transit agencies’ limited funds. However, according to DHS officials,
           congressional funding for the grants program has been drastically reduced from
           more than $400 million in 2008 to $87.5 million in 2012. With the high demand
           for grants and shrinking resources, fewer applications are funded. Transit
           agencies look for affordability and a high return on investment before spending
           grant money on new technology.

           Most explosive detection devices currently available were developed in response
           to aviation-related threats and requirements. The products have almost no
           application to mass transit.

   Funding Challenges Exist for the Mass Transit Program

   S&T and the Explosives Division (EXD) have experienced substantial budget cuts in the
   past 2 years. EXD’s budget was reduced by 28 percent in fiscal year 2012. Despite a
   $39.4 million increase in the Fiscal Year 2013 President’s Budget request (53 percent
   over fiscal year 2012), funding levels for this year are uncertain, and further cuts may be
   necessary. To assist with the budget process and to establish funding priorities, S&T
   senior managers conduct periodic project reviews. An S&T official indicated that the
   review process allows management to balance its portfolio with a primary focus on
   available funding, probability of success, and importance to the customer component.
   The official also explained that it is challenging to develop technology without the
   assurance that developed products would be commercially successful. S&T believes
   that without some commitment by a mass transit end-user to co-invest in the

www.oig.dhs.gov                                  5                                         OIG-13-111
                            OFFICE OF INSPECTOR GENERAL 

                                      Department of Homeland Security



   technology, it would be difficult to justify long-term allocation of time and resources.
   One way that an S&T project “succeeds” is when S&T develops and refines a useful new
   technology to the point that a private sector company can profitably manufacture a
   product using the new technology, and DHS elements or outside stakeholders will
   choose to buy that new product.



   Results of Review
   Mass transit, which includes intercity buses, trolleybuses, subway (heavy rail) and
   commuter rail, demand response services, automated guideway transit, cable cars, and
   monorails, is an integral part of the U.S. transportation system. As the Nation’s second
   largest mode of transportation (next to the automobile), there were 10.2 billion mass
   transit passenger trips in 2009 for a total of 55.2 billion passenger miles.4 5 According to
   the 2012 Annual Progress Report for the National Strategy for Transportation Systems,
   the transportation sector’s greatest risk is an IED attack on the mass transit mode
   because of its open access and the probability of mass casualties.6 Bombing attacks in
   Madrid (2004), London (2005), Mumbai (2006), and Moscow (2010) demonstrate the
   importance of identifying risks to mass transit and for continuing to protect the mode’s
   infrastructure. All of these attacks involved IEDs detonated in mass transit systems,
   leading to approximately 470 deaths and 3,270 injuries.7 The need for proven counter-
   IED technologies suitable for mass transit systems demands that key stakeholders
   coordinate efforts to pursue such technology.

   Understanding the risk profile of a particular transportation mode is critical to
   identifying and mitigating vulnerabilities and capability gaps. TSA uses a range of tools
   to determine risks to surface transportation and to assess existing mass transit security
   programs.8 These assessments are the basis for TSA’s capability gap analysis and
   resource allocation for R&D efforts.

   4
     TSA refers to mass transit as "transportation by a conveyance that provides regular and continuing
   general or special transportation to the public, but does not include school bus, charter, or sightseeing
   transportation." For the purposes of this review, DHS OIG is discussing subways when mentioning mass
   transit.
   5
     http://www.apta.com/resources/statistics/Documents/FactBook/APTA_2011_Fact_Book.pdf, page 11.
   6
     The 2012 Annual Progress Report for the National Strategy for Transportation Systems was published
   November 2012 by TSA.
   7
     On March 11, 2004, 10 bombs were detonated on four different commuter trains, causing 191 deaths
   and more than 1,800 injuries in Madrid, Spain. The July 2005 London attacks resulted in 52 deaths and
   more than 770 injuries. The July 2006 attacks in Mumbai resulted in approximately 190 deaths and 600
   injuries. In Moscow, a 2010 subway bombing killed 38 people and injured 102 people.
   8
     TSA conducts the Transportation Sector Security Risk Assessment, Baseline Assessment for Security
   Enhancements Review, and annual mass transit threat assessments on a regular basis.

www.oig.dhs.gov                                        6                                               OIG-13-111
                         OFFICE OF INSPECTOR GENERAL 

                                 Department of Homeland Security



   We assessed the DHS processes to identify and                  Capability Gaps
   prioritize critical gaps in detecting IED threats      The difference between
   against mass transit systems for R&D. We also          current operational
   examined TSA and S&T’s coordination of R&D             capabilities and those
   efforts to secure mass transit systems specifically    capabilities needed to perform
   against IED threats.                                   mission-critical objectives that
                                                          remain unsatisfied.
   The TSA and S&T processes are successful in       Developing Operational Requirements, DHS,
                                                     2008.
   identifying and prioritizing capability gaps.
   Because many of these processes are new or
   were recently redesigned, we recommend that they be formally documented as policies
   or guidelines to ensure continuity in the future.

           S&T and TSA Reorganized Working Groups and Redesigned Their Processes for
           Identifying Capability Gaps and Prioritizing R&D Projects.

           As directed by the TS-SSP and the Mass Transit Modal Annex, TSA and S&T
           developed processes to identify capability gaps. The Surface R&D Working
           Group (RDWG) was originally chartered by TSA in 2007 and reorganized in 2011
           to identify surface transportation capability gaps. S&T’s Capstone Integrated
           Product Teams (IPTs), initiated in 2006 to prioritize and initiate R&D efforts,
           were dissolved in 2010 and replaced in part by the Surface Transportation
           Project IPT. As a result, the new working groups revised the processes for
           capability gap analysis and prioritizing R&D efforts.

           The Surface RDWG Was Reorganized in 2011

           The Transportation Systems Sector GCC established an RDWG to bring
           stakeholders together from across the sector to identify mission needs and
           capability gaps. Originally chartered in 2007, the objective of the RDWG is to
           improve the coordination and prioritization of sector-directed R&D efforts across
           all transportation security partners.

           At its inception, the RDWG had hundreds of members representing nearly every
           Government and surface transportation agency, and transportation-related
           organization. However, the RDWG was ineffective, and several ad hoc splinter
           groups began to work without coordination or official guidance. They were
           trying to engage individual transit agencies informally, resulting in confusion and
           frustration.

           In 2011, TSA reevaluated the RDWG, and decided to limit its membership to
           improve coordination and facilitate discussions and actions through one
www.oig.dhs.gov                                 7                                       OIG-13-111
                         OFFICE OF INSPECTOR GENERAL 

                                Department of Homeland Security



           centralized working group. The TSA Office of Security Policy and Industry
           Engagement (OSPIE), formerly known as the Office of Transportation Sector
           Network Management, invited a limited number of Federal and industry
           partners from the Transportation Sector GCC and the SCC to participate. The 74
           current members include 8 Government agencies, a freight rail, a pipeline, 2
           highway, and 21 mass transit organizations. The reorganized RDWG held its first
           formal meeting in May 2012.

           S&T’s Surface Transportation Project IPT Replaced the Transportation Security
           Capstone IPT

           In 2006, S&T formed Capstone IPTs to bring together senior managers from S&T
           and other DHS components (S&T’s “customers”) to identify the components’
           operational needs and capability gaps and to prioritize R&D programs. The
           cross-functional Capstone IPTs were intended to reach consensus on long-term
           strategies for R&D efforts. By 2009, S&T had established 13 Capstone IPTs, each
           with its own Sub-IPTs and various Project IPTs. Initially, managers from the DHS
           components and the RDWG identified and submitted capability gaps to the
           Capstone IPT. The Capstone members merged overlapping gaps, and prioritized
           R&D projects based on available funding. Technical experts from the
           components identified project requirements. However, often experts did not
           have sufficient technical data for a complete understanding of those gaps.

           In 2009, at the project level, the EXD, now part of the Homeland Security
           Advanced Research Projects Agency (HSARPA), formed a Project IPT to
           coordinate the surface transportation’s technology development. Based on the
           collaborative relationship between S&T and TSA, the program managers decided
           to maintain the Project IPT, even after the Capstone process was determined to
           be ineffective and discontinued in 2010.

           The Surface Transportation Project IPT is co-chaired by TSA’s Office of Security
           Capabilities (OSC) and EXD, with members from OSPIE and representatives from
           other HSARPA Divisions. The IPT brings together entities developing solutions to
           fill the capability gaps through coordinated technology innovations,
           development of metrics, deliverables, and detailed schedules.

           The partnership between S&T and TSA continues to grow and mature. Although
           early attempts by S&T to work directly with mass transit agencies were criticized
           by TSA, the IPT’s efforts are currently well coordinated. According to S&T and
           TSA officials, the relationship between their components has “greatly improved.”



www.oig.dhs.gov                                8                                      OIG-13-111
                             OFFICE OF INSPECTOR GENERAL 

                                       Department of Homeland Security




            S&T and TSA Redesigned the Gap Analysis Process

            With the formation of the new RDWG, OSC Intermodal Division took the lead in
            2012 to return to an annual review of capability gaps, as shown in Figure 3.9

                      Figure 3. Capability Gaps Process




                      Source: TSA Office of Security Capabilities


            In May 2012, participating RDWG transportation agencies identified current gaps
            in their respective systems using the previously developed Capstone gaps as a
            sample format.10 TSA consolidated the capability gaps, while S&T provided
            comments to clarify the related operational needs. The consolidation process
            combined 14 previously identified capability gaps and 22 new gaps, for a final list
            of 10 multimodal gaps designed to be broad enough for multiple projects but
            specific enough to define overarching operational requirements. After a final
            review by the RDWG, TSA distributed the list to DOT, National Protection and
            Programs Directorate (NPPD), S&T, and TSA project managers.

            Based on our analysis, we agree with DHS officials that the new Surface RDWG
            provides an effective and appropriate venue to identify cross-modal capability
            gaps. Through the redefined gap analysis process, S&T and TSA work together
            with industry to identify more specific and refined capability gaps and feasible
            R&D projects to address them. According to DHS officials, the RDWG does not
            prioritize the identified capability gaps because it addresses multiple


   9
     The reorganized RDWG assessed capability gaps only for surface transportation modes. Previous

   capability gaps included all TSA modes.

   10
      Although all members are invited to participate in this process, only a few transportation agencies 

   submitted capability gaps. 


www.oig.dhs.gov                                            9                                             OIG-13-111
                         OFFICE OF INSPECTOR GENERAL 

                                 Department of Homeland Security



           transportation modes with varying consequence, vulnerability, and threat levels.
           Solutions to address how the gaps are prioritized are ultimately the product of
           S&T’s budget and funding decisions.

           The RDWG gap analysis process was redesigned and implemented by a small
           number of TSA employees. Although a TSA official indicated that the new
           capability gap analysis process is based on the steps outlined in the TS-SSP, the
           current workflow and process have not been documented. Formal guidelines or
           policies will ensure continuity in future reviews.

           Recommendation

           We recommend that the Transportation Security Administration Office of
           Security Capabilities:

           Recommendation #1: Formally document the newly implemented process for
           identifying capability gaps to ensure a standard process is established.


   Management Comments and OIG Analysis

           We evaluated TSA’s formal and technical comments and have made changes to
           the report where appropriate. TSA’s written response to the one
           recommendation, and our analysis, is included below. A copy of the formal
           response, in its entirety, appears in appendix B.

           Recommendation #1: Formally document the newly implemented process for
           identifying capability gaps to ensure a standard process is established.

           TSA Response: TSA concurs. TSA is documenting the Surface RDWG processes,
           including the process for identifying capability gaps, which will then be attached
           as an appendix to the formal Surface RDWG charter. The updated charter with
           appendix will be vetted by TSA and DHS with a target deadline of September 30,
           2013, for finalizing the document.

           OIG Analysis: The action proposed by TSA is responsive to the intent of this
           recommendation. We anticipate closing the recommendation when we receive
           and have reviewed the final documents. We consider the recommendation
           Resolved and Open.




www.oig.dhs.gov                                10                                       OIG-13-111
                               OFFICE OF INSPECTOR GENERAL 

                                         Department of Homeland Security



             S&T Has Created the Necessary Framework for the Development of
             Layered IED Detection Technology

             Technology to secure the mass transit environment adequately has not yet been
             developed. However, S&T, in partnership with TSA, has developed a framework
             to identify and pursue R&D projects to mitigate gaps in securing mass transit
             systems. OSC and EXD developed separate but related processes in search of
             new technology.




     Source: S&T Explosives Division and OIG analysis


             Figure 4 provides an overview of the S&T R&D approach to securing mass transit.
             It also indicates where S&T passes the development effort on to TSA for further
             review and testing. In addition, TSA tests and evaluates available off-the shelf
             equipment for use in the mass transit environment. Both approaches have
             identified operational requirements and provide guidance for DHS’ technology
             development.

             To sustain these efforts, it is important that TSA, S&T, and transit agency
             representatives continue to collaborate and communicate. Additionally, a
             management commitment to fund each stage of the R&D process fully is crucial
             to the viability of the S&T Surface Transportation Program.




www.oig.dhs.gov                                         11                             OIG-13-111
                        OFFICE OF INSPECTOR GENERAL 

                                Department of Homeland Security



   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security Office of Inspector General (OIG) was established 

   by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the

   Inspector General Act of 1978. This is one of a series of audit, inspection, and special 

   reports prepared as part of our oversight responsibilities to promote economy, 

   efficiency, and effectiveness within the Department.


   This review was included in the OIG Fiscal Year 2013 Annual Performance Plan. Our 

   objectives were to evaluate (1) how critical gaps in detecting improvised explosive 

   threats against mass transit systems are identified and prioritized for research and 

   development, and (2) how the TSA and S&T coordinate research and development 

   efforts to secure mass transit systems. The scope of this review is limited to the mass

   transit mode of the transportation sector, specifically subways. 


   We conducted our fieldwork from October 2012 to March 2013. During that period, we

   interviewed officials from— 


           TSA’s Office of Security Capabilities;

           TSA’s Office of Security Policy and Industry Enhancement; 

           TSA’s Office of Security Operations;

           TSA’s Office of Intelligence and Analysis; 

           DHS Science and Technology Homeland Security Advanced Research Projects 

           Agency; 

           S&T’s HSARPA Explosives Division; 

           The American Public Transportation Agency;

           The Johns Hopkins University Applied Physics Laboratory;

           The Washington Metropolitan Area Transit Authority; and, 

           The Massachusetts Bay Transit Authority. 


   We also attended and interviewed police chiefs at the Mass Transit/Rail Security and 

   Emergency Management Roundtable in Washington, DC, as well as the February Surface 

   Transportation Integrated Project Team meeting held at TSA Headquarters. 


   In addition to testimonial evidence from interviews with subject matter experts, we 

   requested and reviewed the following documentation from TSA, S&T, our interview 

   subjects, and public sources. This included, but was not limited to:





www.oig.dhs.gov                                12                                      OIG-13-111
                         OFFICE OF INSPECTOR GENERAL 

                                Department of Homeland Security



           Charters, by-laws, membership lists, and minutes of the various councils and 

           working groups;

           PowerPoint presentations by S&T and OSC; 

           S&T budget information;

           NIPP, TS-SSP, Modal Annex;

           S&T’s Surface Transportation Project Management Plan; and 

           DHS Risk Assessments.


   We conducted this review under the authority of the Inspector General Act of 1978, as
   amended, and according to the Quality Standards for Inspections issued by the Council
   of the Inspectors General on Integrity and Efficiency.




www.oig.dhs.gov                               13                                      OIG-13-111
              g   .
                        .
                              OFFICE OF INSPECTOR GENERAL 

                                         Department of Homeland Security



   Appendix B
   Management Comments to the Draft Report


                                                                                          I!.S. lleportm<nt or Homdo11d Suurif¥
                                                                                          70\ Sooth 12th St=t
                                                                                          Arlingtm. Vi\ 20~9&.602 I
                                                                               iT;;-,..                      •
                                                                                    '~Transportatiou
                                                                              ~
                                                                                    ~ Security
                                                                                      Administration.
                                                                          -




              MEMORANDUM FOR:               Deborah L. Outten· Mills
                                            A<.."ting Assistant Inspecro.r General for Inspections
                                            U.S. Department of Homeland Security

              FROM:                         Jo.h n S. Pisto1e   oJ f..·
                                            Administrator       7"
              SUBJECT:                      Resem·ch and Development E'fforts To Secure Rail Transit Systems.
                                            OIG Pro.ioct No. 12-040-!SP




              This memmandum constitutes the Transportation Security Administration' s (TSA) resp1.1nse to
              the U.S. Department of J lomeland Security's (DRS} Oflice of the lnspector General (OIG) draft.
              report titled, Research and Devcilopmcm 6/jorts 1'o Secure Rail Transit Systems, OIG Project No.
              12-040-JSP.

              Background

              DHS cuml.uckd this audit from Oetober2012 to March 2013. This review was included in 11u~
              O!G Fiscal Year (FY) 20 !3 Annual Perfonnanc.e Plan. The objectives of the audit were to
              evaluate (1) how critical gaps in d~tocting improvised explosive devic.e threats against mass
              transit systems are identified and prioritized for research and development, and (2) how TSA and
              the DHS Science & Technology Directorate (S&T) coordinate research and development efforts
              to secure mass transit systems. The scope, of the review was limited to the mass transit mode of
              the transportation sector, spec.ifically subways. OIG interviewed numerous officials from TSA
              and DHS S&T. 01Ga1so attended and interviewed police chiefs at the Mass Transit/Rail
              Security and Emergency Management Roundtable in Washington. DC, as well as the February
              Surface Transportation Integrated Project Team meeting at TSA headquarters.

              Discussion

              During 20 ll and 2012, TSA reorganizeJ. the Surface Research and Development Working
              Group (Surface RDWG), which was originally chartered in 2007. After three formal meetings
              held from April to July 2013, TSA has refined last year's capabil.ity gaps to increase clarity and
              comprehensiveness of land-based transportation stakeholde.r needs. TSA has continued to
              receive positive feedback from the Surface RDWG participants on this outreach effort.




www.oig.dhs.gov                                                  14                                                               OIG-13-111
              g   .
                        .
                              OFFICE OF INSPECTOR GENERAL 

                                         Department of Homeland Security





             The Surface RDWG processes in 2012 were considered to be a proof of concept, thereby
             allowing for the identification of necessary changes or improvements prior to definition,
             validation, and formal documentation of RDWG processes In 2013. Accordingly, TSA planned
             to update its chnrtcr during FY 2013, which coincides with the implementation of the OlG
             recommendation. TSA will attach an iippendix to the updated formal Surface RDWG charter
             providing the standardized surface transportation RDWG process.

             ReeommendatiD'n #1: Formally document the newly implemented process for identifying
             capability gaps to ensure a standard process is established.

             TSA concurs. TSA is documenting the Surface RD WG processes. including the process for
             identifying capability gaps, which will then be attached as an appendix lo the formal Surface
             RDWG chart~L The updated charter with appendix will be vet1ed by TSA and DHS wilh a
             target deadline of September 30. 20 l3, for finalizing the document.




www.oig.dhs.gov                                              15                                              OIG-13-111
                       OFFICE OF INSPECTOR GENERAL 

                              Department of Homeland Security




   Appendix C
   Major Contributors to This Report
   William McCarron, Chief Inspector
   Dagmar Firth, Senior Inspector
   Shawntae Hampton, Inspector
   Megan Thompson, Inspector
   Douglas Ellice, Chief Inspector




www.oig.dhs.gov                           16                     OIG-13-111
                         OFFICE OF INSPECTOR GENERAL 

                                  Department of Homeland Security



   Appendix D
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer
   TSA Component Liaison
   S&T Component Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  17                        OIG-13-111
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
